OIG Audit Report GR-40-09-001

Use of Equitable Sharing Revenues by the Camden County, Georgia, Sheriffs Office, Woodbine, Georgia
Audit Report GR-40-09-001
March 2009
Office of the Inspector General


Executive Summary


The  U.S. Department of Justice (DOJ) Office of the Inspector General, Audit  Division, has completed an audit of the use of DOJ equitable sharing revenues  by the Camden County, Georgia, Sheriff’s Office (Sheriff’s Office) at the request of the  United States Attorney’s Office, Northern District of Georgia.  Equitable sharing revenues represent a share  of the proceeds from the forfeiture of assets seized in the course of certain  criminal investigations.1 The audit covered the period July 1,  2004, through April 30, 2008, which included the Camden County’s  fiscal years (FY) 2005 through 2007 and the first 10 months of FY 2008.2 During that period, the Sheriff’s Office was  awarded DOJ equitable sharing revenues totaling $1,379,992 to support law  enforcement operations and spent $1,865,866,  which includes funds awarded prior to the audit period. 
 The  Sheriff’s Office generally complied with equitable sharing guidelines regarding  accounting for equitable sharing receipts, use of equitably shared property,  interest earned on equitable sharing funds, and compliance with non-supplanting  requirements.  However, we found  weaknesses related to the Sheriff’s Office Federal Equitable Sharing Agreement  and the Federal Annual Certification Reports, and the use of equitable sharing  revenues.  Overall, we identified $663,659 in dollar-related findings, which is about 36 percent  of total equitable sharing funds expended by the Sheriff’s Office during the  period July 1, 2004, through April 30, 2008.  Our findings include the following.

Neither the  Sheriff nor the Chairman of the Camden County Board of Commissioners signed the  most recent edition of the Federal Equitable Sharing Agreement.
The Sheriff  was not personally signing the Federal Annual Certification Reports and the Chairman of the Camden County Board of  Commissioners refused to sign the most recent Federal Annual Certification  report for FY 2007. 
The Sheriff’s Office  auditor was not coordinating his financial reporting with the County auditors  resulting in disparities in reporting. 
The Sheriff’s Office  procedures for documenting support for equitable sharing expenditures were  inadequate.
We identified  $663,659 in questioned costs relating to equitable sharing funds, consisting of  $200,937 in unsupported expenditures and $506,990 in unallowable costs.3

The results of our work are discussed in greater  detail in the Findings and Recommendations section of the report.  The audit objectives, scope, and methodology  appear in Appendix I.  


 

Footnotes

The  DOJ asset forfeiture program has three primary goals:  (1) to punish and deter criminal  activity by depriving criminals of property used or acquired through illegal  activities; (2) to enhance cooperation among foreign, federal, state, and  local law enforcement agencies through equitable sharing of assets recovered  through this program; and, as a by-product, (3) to produce revenues to  enhance forfeitures and strengthen law enforcement.
The Camden  County, Georgia, fiscal year begins on July 1 of each year.
Costs of $44,268  were questioned both because of allowability and support, which is why the two  component costs exceed the total amount of questioned costs.





 




Return to OIG Home Page